__________________________________________________________________________

INVESTIGATIVE REPORT ON MANAGEMENT ISSUES
(OIG-432)
______________________________________________________________________________
                                                February 16, 2006

To:            Randall Lee

From:          Walter Stachnik

Re:            PRO Employee Clearance Process

        During the course of an investigation at the Commission’s Pacific Regional Office
(“PRO”) (OIG-432), we identified a need for improved management controls at the PRO over
the clearance process for transferring or separating employees, as discussed below.

Employee Clearance Form
         We learned that the PRO does not have adequate procedures for the clearance of
employees who transfer or separate from the PRO. In accordance with Commission Regulation
(“SECR”) 7-4 governing the employee clearance process, the PRO, like all other Commission
offices, uses SEC Form 1455, the “employee clearance record form.” Form 1455 is used for all
personnel who leave the PRO to record the return of any documentation or other government
property issued to them during the course of employment.
         There appears to have been confusion at the PRO about the form, however. For example,
in some instances a box on the form checked “yes” next to certain returned property indicated
the item was returned to the PRO employee responsible for the clearance process. In another
place on the form, however, a box checked “yes” indicated that an item was returned to the
appropriate office at headquarters. In addition, we learned of one instance where the form was
not filled out during the employee check out process, but instead was completed days later. 1

Recommendation A
        The PRO, in coordination with the Office of Human Resources (“OHR”) and Office of
Filings and Information Services (“OFIS”), should develop and implement procedures for timely
completion of the employee clearance record form in a uniform way that provides meaningful,
accurate information about the government property returned.

Response to Recommendation A
       The PRO has developed detailed staff procedures for employee out-processing, which it
intends to implement immediately. See Attachment. These procedures include guidelines for
uniform completion of the clearance form and a deadline for completion of the form and

1
        The Office of Inspector General may perform a future audit of the regional and district
        offices’ employee clearance process.
submission of information and materials to appropriate offices.

Government-Issued Travel Charge Cards and Passports
        We found that the PRO’s lack of adequate procedures for the employee clearance process
resulted in a failure to timely and securely return travel charge cards and passports collected
from departing employees to the appropriate Commission headquarter’s offices. In addition, the
Office of Financial Management (OFM), which is responsible for the travel charge card, was not
always alerted or alerted promptly by the PRO that a travel charge card had been returned by an
employee and should be cancelled. 2
        We learned that a travel charge card that was turned in by a departing PRO employee was
used after the employee departed for unauthorized purchases. The travel charge card was
ultimately returned to headquarters, but we learned that other travel charge cards had also not
been cancelled promptly after receipt from departing employees. In addition, we learned that a
passport returned from a departing employee was not sent promptly to the Office of the Secretary
(OS), which is responsible for government-issued passports. The passport was ultimately
returned to OS. Since neither OFM or OS was aware that these items were returned to the PRO
by the departing employee, there was an increased likelihood of their theft or misuse (as
occurred with the travel charge card).

Recommendation B
       The PRO, in consultation with OFM, should develop procedures to ensure that the travel
charge cards of departing employees are promptly destroyed, that OFM is notified that the card
should be cancelled, and that the travel charge cards of transferring employees are properly
accounted for.

Response to Recommendation B
       The PRO has developed procedures to ensure that the travel charge cards of departing
employees are timely and promptly canceled. See Attachment. In accordance with those
procedures, the PRO will notify OFM by e-mail in advance that an employee is separating from

2
       We also learned from OFM that field offices sometimes notify OFM that an employee is
       departing the field office, without specifying that the employee is only transferring to
       another office or division within the Commission and should not have the travel charge
       card cancelled.




                                                2
the PRO, then return any travel charge card to OFM within five business days after the
separation, and document its return.

Recommendation C
       The PRO, in consultation with OS, should develop procedures to ensure that government-
issued passports of departing PRO employees are promptly returned to OS. 3
Response to Recommendation C
       The PRO has developed procedures to ensure that government-issued passports of
departing employees are promptly returned to OS. See Attachment. In accordance with those
procedures, the PRO will notify OS by e-mail if a passport is returned, then mail the passport to
OS within five business days after the separation, and document its return.


cc:    Peter Uhlmann
       James McConnell
       Nancy Morris
       James Clarkson
       Jeffrey Risinger
       Margaret Carpenter
       Darlene Pryor
       Rick Hillman
       Rabia Cebeci
       David Levinson
       Darrell Dockery




3
       In Audit No. 402, the Office of Inspector General made a similar recommendation that
       the Office of the Secretary remind headquarter’s and regional office staff of their
       obligation to ensure that separating employees return their government-issued passports
       to OS prior to their departure from the Commission.




                                               3
